DOE/IG-0526




          AUDIT
         REPORT

                                  DISSEMINATION OF RESEARCH
                                   FROM THE ENVIRONMENTAL
                                     MOLECULAR SCIENCES
                                         LABORATORY




                                          SEPTEMBER 2001




     U.S. DEPARTMENT OF ENERGY
    OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                        U. S. DEPARTMENT OF ENERGY
                              Washington, DC 20585

                                 September 26, 2001



MEMORANDUM FOR THE SECRETARY

FROM:                      Gregory H. Friedman (Signed)
                           Inspector General

SUBJECT:                   INFORMATION: Audit Report on "Dissemination of Research from
                           the Environmental Molecular Sciences Laboratory"

BACKGROUND

In response to a 1995 Office of Inspector General report entitled, Audit of Department of Energy's
Environmental Molecular Sciences Laboratory (EMSL), Department of Energy officials stated
that the laboratory would offer unique interactive and synergistic scientific exploration
capabilities and would be equipped with state-of-the-art and first-of-a-kind equipment.
Subsequently, the Department constructed and currently operates the EMSL in Richland,
Washington. The $229 million EMSL opened in October 1997 as a National User Facility.
Under contract with the Richland Operations Office (Richland), Battelle Memorial Institute
(Battelle) operates the EMSL as well as Pacific Northwest National Laboratory.

EMSL's designation as one of several Department of Energy user facilities is a key component of
its importance to the greater scientific community. Under this concept, non-Departmental
laboratory users – including for-profit and not-for-profit entities – can access EMSL's unique
facilities for their scientific investigations. Those engaged in proprietary research are obligated to
pay the full-cost recovery rate for their use of the EMSL facility. However, users engaged in
general or nonproprietary research are not charged, but must document and provide their research
results to the EMSL.

Facility officials are responsible for ensuring these results are documented and that deliverables,
such as technical reports, are collected and forwarded to the Department's Office of Science and
Technology Information (OSTI), through which they are made available to the general scientific
community. To date, 97 percent of the research conducted at the EMSL has been nonproprietary.
The objective of the audit was to determine if the results of nonproprietary research at the EMSL
were collected and forwarded to OSTI.

RESULTS OF AUDIT

The audit disclosed that operating officials at the EMSL did not always collect and forward the
results of nonproprietary research to OSTI. In fact, EMSL officials had not received research
results or deliverables for 94 of 153 completed research projects that were listed as completed at
the time of our audit. Even when deliverables were received, EMSL officials often did not send
them to OSTI. We found that Battelle had received over 700 deliverables, yet just 60 had been
forwarded to OSTI.
                                                 -2-

The contract between Richland and Battelle contained provisions to collect and forward all
deliverables to OSTI. However, in spite of the contract provisions, Battelle developed a management
system that did not identify or track all research projects performed. Also, Battelle, EMSL, and
Richland officials alike claimed that they did not fully understand the requirements for sending
research results to OSTI. In fact, Richland officials were not knowledgeable of the types of
documents that had to be sent to OSTI and were not familiar with the contract provision. Without full
dissemination of appropriate EMSL research results to the scientific community, this invaluable
resource may not be readily available to other current and future scientists.

MANAGEMENT REACTION

Richland management concurred with the finding and recommendations. Richland also provided a
corrective action plan to implement the recommendations.

Attachment

cc:   Deputy Secretary
      Under Secretary for Energy, Science and Environment
      Manager, Richland Operations Office
DISSEMINATION OF RESEARCH FROM THE ENVIRONMENTAL
MOLECULAR SCIENCES LABORATORY

TABLE OF
CONTENTS


                Overview

                Introduction and Objective ............................................... 1


                Conclusions and Observations ........................................ 1


                Dissemination of Nonproprietary Research


                Details of Finding ............................................................ 3


                Recommendations and Comments ................................. 5


                Appendices


                Scope and Methodology.................................................. 7


                Related Office of Inspector General Reports................... 8
OVERVIEW
INTRODUCTION      A 1995 Office of Inspector General (OIG) report questioned the need
AND OBJECTIVE     for a proposed Environmental Molecular Sciences Laboratory (EMSL).
                  In responding to the report, Department of Energy (DOE) officials
                  asserted that the laboratory would offer unique interactive and
                  synergistic scientific exploration capabilities and would be equipped
                  with state-of-the-art and first-of-a-kind equipment. Subsequently, DOE
                  constructed and currently operates the EMSL in Richland, Washington.
                  Under contract with the Richland Operations Office (Richland), Battelle
                  Memorial Institute (Battelle) operates the EMSL as well as Pacific
                  Northwest National Laboratory.

                  The $229 million EMSL opened in October 1997 as a National User
                  Facility. All potential users must sign a user agreement prior to using
                  the EMSL facilities. Users engaged in proprietary research are
                  obligated to pay the full-cost recovery rate for EMSL usage. Users
                  engaged in general or nonproprietary research, however, are not
                  charged but must document and provide their research results to the
                  EMSL. Facility officials are responsible for ensuring that these results
                  are documented and that deliverables, such as technical reports, are
                  collected and forwarded to the Office of Science and Technology
                  (OSTI) for further dissemination to the scientific community. To date,
                  97 percent of the research conducted at the EMSL has been
                  nonproprietary.

                  The objective of the audit was to determine if the results of
                  nonproprietary research at the EMSL were collected and forwarded to
                  OSTI.


CONCLUSIONS AND   Operating officials at the EMSL often did not collect and forward to
OBSERVATIONS      OSTI the results of nonproprietary research. In fact, EMSL officials
                  had not received research results or deliverables on 94 of 153
                  completed research projects. Since these deliverables were not
                  received, they could not be forwarded to OSTI. Even when
                  deliverables were received, however, EMSL officials often did not send
                  them to OSTI. We found that Battelle had received over 700
                  deliverables, but had forwarded just 60 to OSTI. The contract between
                  Richland and Battelle contained provisions to collect and forward all
                  deliverables to OSTI. In spite of the contract provisions, Battelle




Page 1                                                Introduction and Objective/
                                                      Conclusions and Observations
         developed a management system that did not identify deliverables that
         were due. Further, Battelle, EMSL, and Richland officials alike
         claimed that they did not fully understand the requirements for sending
         research results to OSTI. Without full dissemination of research results
         to the scientific community, future researchers may not benefit from
         past discoveries. Therefore, DOE may not receive full value from the
         $48 million it costs annually to operate the EMSL.

         Problems with collecting technical reports and forwarding them to
         OSTI are not currently limited to the EMSL. Recent audits performed
         at other locations across the DOE complex showed that technical
         reports were not always received and when received were not always
         forwarded to OSTI.

         The audit identified issues that management should consider when
         preparing its yearend assurance memorandum on internal controls.




                                         _____(Signed)__________
                                         Office of Inspector General




Page 2                                       Conclusions and Observations
Dissemination of Nonproprietary Research
Research Results Not     EMSL officials did not collect or forward to OSTI deliverables
Made Available to OSTI   documenting the results of numerous projects. Of the 790 research
                         projects conducted at the EMSL since it opened in October 1997, 769
                         (97 percent) were nonproprietary. Since the use of the EMSL is free to
                         nonproprietary users, EMSL officials should have collected and
                         forwarded all nonproprietary research deliverables to OSTI. However,
                         the EMSL had no record of receiving deliverables on 94 of the 153
                         nonproprietary projects that were listed as completed at the time of our
                         audit. Further, even when deliverables were received, officials often
                         did not forward the deliverables to OSTI. From October 1997 to March
                         2001, only 60 deliverables were sent to OSTI. Our analyses of Battelle
                         and EMSL records and discussions with operating officials revealed
                         that more than 700 deliverables had been received.

National User Facility   DOE established the EMSL as a National User Facility that performs
                         cutting-edge molecular science targeting DOE's environmental mission.
                         The mission of the EMSL is to provide advanced resources to scientists
                         engaged in fundamental research, to conduct fundamental research in
                         molecular sciences, and to educate scientists in the molecular sciences
                         to meet the demanding challenges of the future. National user facilities
                         permit researchers to extend the frontiers of science. In certain
                         scientific disciplines, the most creative research can only be done at
                         these large facilities. Since nonproprietary research is free at a user
                         facility, the value derived from its operation is through the collection
                         and dissemination of technical information to the scientific community
                         through OSTI - the coordination point for all of DOE's scientific and
                         technical information.

                         OSTI was established to collect, organize, preserve, and disseminate
                         research results. To successfully perform these functions, OSTI relies
                         on DOE field offices and their contractors, particularly those operating
                         national user facilities, to forward appropriate deliverables. In order to
                         send this material, user facility officials must establish life-cycle
                         systems to identify deliverables; track anticipated and actual
                         deliverables; and collect and, then, transmit them to OSTI. To clarify
                         the type of deliverables that should be forwarded, DOE issued the
                         Guide to the Management of Scientific and Technical Information in
                         August 1998. The Guide states that deliverables include such items as
                         technical reports, journal articles, professional publications,
                         presentations, and conference proceedings. Further, deliverables
                         provide important technical findings to the widest audience in the
                         scientific community. Ultimately, the deliverables are critical in
                         assessing the scientific work at DOE laboratories and determining its



Page 3                                                                       Details of Finding
                     value in relation to the significant taxpayer investment in DOE's
                     research and development program.

Project Management   EMSL officials were generally unaware that as operators of a user
Controls             facility they were (1) to account for all research conducted at the user
                     facility; (2) to receive results for all nonproprietary research; (3) to
                     know what deliverables were due, when they were due, and if they had
                     been received; and (4) to collect and forward such deliverables to OSTI.
                     Likewise, Battelle and Richland officials were not aware of the
                     requirement to collect and forward research results to OSTI.

                     Although Battelle had installed a management system at the EMSL, the
                     system did not identify or track all research projects performed. For
                     example, the system identified 657 projects; however, an analysis of
                     financial reports and discussions with officials within EMSL's 6
                     directorates revealed that 133 additional projects existed. These
                     additional projects involved Battelle researchers who worked in
                     collaboration with EMSL researchers; thus, these research projects were
                     considered to have been performed by Battelle employees, and
                     consequently did not go through the project management system. The
                     management system used at the EMSL, therefore, was incomplete. In
                     fact it showed that only 48 deliverables had been received, a figure
                     significantly less than the 718 identified through analyses of records
                     and discussions with operating officials.

                     Finally, Richland officials like their counterparts at Battelle and EMSL
                     did not recognize their duties and responsibilities and, therefore, had
                     done little to ensure that their EMSL user facility obligations were
                     fulfilled. Richland officials were not knowledgeable of the types of
                     documents that had to be sent to OSTI and were not familiar with the
                     contract provision. Therefore, three and one-half years after beginning
                     operations Richland had not reviewed the EMSL management system
                     to ensure the system was accomplishing its objectives. Additionally,
                     Richland did not establish performance measures as intended by DOE
                     Order 241.1, Scientific and Technical Information Management, to
                     judge Battelle's progress made in collecting and forwarding deliverables
                     to OSTI for future use and dissemination. Finally, although a
                     management fee was established in the Battelle contract, Richland had
                     not made any fee applicable to the operation of EMSL.




Page 4                                                                  Details of Finding
DOE Not Fully Benefiting   The scientific work done at the EMSL is not in question. However, it is
from the EMSL              questionable whether DOE and the scientific community have fully
                           benefited from the nonproprietary research done at the EMSL. Part of
                           the mission of the EMSL is to educate researchers in molecular sciences
                           to meet the demanding challenges of the future. If the research done in
                           the past is not made available to the scientific community, it is
                           questionable whether the EMSL is fulfilling this aspect of its
                           responsibilities. Research and operation of the EMSL cost taxpayers
                           about $48 million in Fiscal Year (FY) 2000. To ensure that taxpayers
                           benefit from their investment in the facility, research results from
                           nonproprietary research must be promptly collected and disseminated.


RECOMMENDATIONS            We recommend that the Manager, Richland Operations Office:

                              1. Ensure that Richland, Battelle, and EMSL officials are fully
                                 informed of the requirements for the operation of a National
                                 User Facility and to collect all deliverables and forward to OSTI
                                 those that meet the needs of OSTI.

                              2. Establish and use performance measures to evaluate EMSL's
                                 role in collecting and forwarding deliverables to OSTI and tie
                                 the performance measure to the management fee.

                              3. Direct Battelle to establish a project management system that
                                 will track the life-cycle of EMSL nonproprietary research.

MANAGEMENT                 Recommendation 1. Richland concurred with the intent of the
REACTION                   recommendation. Richland will ensure that appropriate Richland and
                           Battelle staff are fully informed of the requirements for the operation of
                           a National User Facility and that all appropriate deliverables as
                           identified by OSTI are forwarded to that office. Richland and Pacific
                           Northwest National Laboratory (PNNL) are currently forwarding
                           research results to OSTI based on their understanding of the
                           requirements as identified in the DOE Guide to the Management of
                           Scientific and Technical Information. Richland and Battelle discussed
                           requirements with OSTI officials on August 27, 2001, and received
                           written clarification concerning OSTI's requirements. Richland and
                           Battelle will continue to discuss similar matters during regularly
                           scheduled conference calls held with OSTI to ensure that all research
                           results required by OSTI are submitted to them.




Page 5                                                      Recommendations and Comments
           Recommendation 2. Richland concurs that performance measures
           specific to EMSL's User Facility role of collecting and forwarding
           appropriate deliverables to OSTI should be utilized. Richland will send
           formal direction to PNNL by September 30, 2001, to establish and use
           performance measures specific to EMSL's role in collecting research
           results to be forwarded to OSTI. However, Richland does not believe
           tracking the numbers of deliverables provided to OSTI is an appropriate
           performance measure to pay fee for, but instead should be monitored as
           part of the Business Management and Oversight Process (BMOP). In
           FY 2001, Richland's oversight of PNNL included monitoring measures
           through BMOP to increase understanding of and compliance with
           information release requirements of the laboratory. In particular,
           Measure 1.3 includes a component that tracks the submission and
           announcement of technical reports to OSTI from the laboratory.

           Recommendation 3. Richland concurred that the existing User
           Proposal Process would be improved by including a formal project
           closeout activity that includes an exit survey and an improved process
           for obtaining information on published research results and
           documentation of the disposition of nonproprietary work.
           Documentation received as a result of this exit process will be retained
           in PNNL's files for possible future reference. PNNL expects to
           implement this closeout procedure by June 30, 2002.

AUDITOR    Richland's actions are responsive to our recommendations. The OIG
COMMENTS   agrees that tracking numbers is not a measure for payment of fee.
           However, one of the prime responsibilities for the operation of the
           EMSL as a National User Facility is ensuring that a deliverable is
           received for all research conducted at the facility. Ensuring the results
           of nonproprietary research reaches the public is the final act of a
           successful operation of a user facility. Therefore, ensuring that
           deliverables are received and appropriately sent to OSTI for public
           dissemination is not just "tracking numbers" but is tracking contract
           performance. Richland's proposed action to include this area in the
           BMOP process will meet the intent of the recommendation.




Page 6                                     Recommendations and Comments
Appendix 1
SCOPE         We performed the audit from December 15, 2000 to August 1, 2001, at
              Richland, Battelle, and EMSL in Richland, Washington. We also
              contacted OSTI, located in Oak Ridge, Tennessee. The audit was
              limited to nonproprietary research conducted at the EMSL from
              October 1997 through March 2001.


METHODOLOGY   To accomplish the audit objective, we:

                 •   Reviewed applicable laws, regulations, policies, and procedures;
                 •   Reviewed user facility agreements;
                 •   Reviewed the accounting for user facility agreement collections;
                 •   Reviewed all EMSL user proposals since inception of the user
                     facility;
                 •   Interviewed Headquarters, Richland, OSTI, and Battelle
                     officials;
                 •   Examined research proposal acceptance criteria and compared
                     the criteria to submitted research proposals;
                 •   Reviewed prior audit reports;
                 •   Evaluated the project management system and compared the
                     system to contractual requirements; and,
                 •   Reviewed 790 research projects at the EMSL.

              We conducted the audit according to generally accepted Government
              auditing standards for performance audits and included tests of internal
              controls and compliance with laws and regulations to the extent
              necessary to satisfy the audit objective. Internal controls reviewed
              included DOE and contractor policies and procedures and Federal
              regulations related to management and operations of user facilities. We
              assessed the significant internal controls and performance measures
              established under the Government Performance and Results Act of 1993
              related to EMSL's management of research projects and results from
              nonproprietary research. There were no specific performance goals
              related to our audit objective. Because we limited our review, it would
              not necessarily have disclosed all internal control deficiencies that may
              have existed at the time of our audit. We assessed the reliability of
              computer-generated data and found it was not reliable for the purposes
              of this audit.

              We discussed this report with Richland and Battelle officials on
              August 29, 2001.




Page 7                                                   Scope and Methodology
    Appendix 2
                    RELATED OFFICE OF INSPECTOR GENERAL REPORTS

•    Peer-Reviewed Scientific Literature Generated at the Department’s Light Sources, (DOE/IG-0520,
     August 2001). Only 44 percent of the abstracts associated with the research performed at DOE's light
     source laboratories in FY 2000 were available for public dissemination through OSTI. Laboratories,
     although required to do so, did not notify OSTI of available peer-reviewed journal articles. Thus,
     OSTI lacked a comprehensive listing of relevant journal articles that would have served as a baseline
     to confirm the accuracy and completeness of the PubSCIENCE database. Secondly, even if the
     requisite information had been provided by the laboratories, OSTI had no systematic methodology for
     reconciling research articles which it had reason to anticipate would be in the database and those
     which were actually included. Based on DOE's objectives for the OSTI program, it is clear that
     researchers may not have had full and ready access to valuable government-sponsored research
     information and that scientific advancement was not fully promoted.

•    Audit of Departmental Receipt of Final Deliverables for Grant Awards, (DOE/IG-0415, December
     1997). Over 700 grants awarded through Headquarters, Chicago and Oak Ridge Operations Offices,
     the Federal Energy Technology Center, and the Chicago Regional Support Office did not provide
     final technical and financial reports. Without the final deliverables, the report concluded that DOE
     could not demonstrate that the public benefit specified in the grant instrument was achieved.

•    Audit of the Department of Energy's Scientific and Technical Information Process, (DOE/IG-0407,
     June 1997). DOE and its management and operating contractors are required to establish life-cycle
     systems to identify, collect, and disseminate scientific and technical products generated under DOE
     funded research and development activities and provide these products to the OSTI. DOE neither
     utilized a life-cycle management process nor ensured that all information generated by DOE's
     management and operating contractors were provided to OSTI. As a consequence, DOE was not in a
     position to know whether it received value for its significant investment in research and development
     or whether information emanating from these efforts received the widest possible dissemination.

•    Audit of Program Administration by the Office of Energy Research, (DOE/IG-0376, August 1995).
     Energy Research, excepting the office responsible for fusion energy, generally did not include
     performance criteria and metrics in work authorizations that provided for research at DOE
     laboratories. While information was available in the contractor's research proposals, Energy Research
     essentially relied on the contractors to initiate and execute the research without agreement on
     expectations. This practice precludes the establishment of documented performance criteria and
     metrics that DOE elements responsible for performance-based contract management can use to
     determine whether contractors met the objectives of DOE for their research efforts.

•    Audit of the Department of Energy’s Environmental Molecular Sciences Laboratory, (DOE/IG-0371,
     April 1995). The Office of Energy Research had not evaluated all practical alternatives in building
     and equipping the proposed EMSL. Energy Research should have considered other alternatives such
     as site location and other laboratory availability. Other DOE laboratories were performing related
     research and had excess space that might have met the proposed Research Laboratory’s requirements.



    Page 8                                                 Related Office of Inspector General Reports
                                                                     Report No.: DOE/IG-0526


                              CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have
any questions about your comments.

Name____________________________________Date________________________________

Telephone________________________________Organization__________________________

When you have completed this form, you may fax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

               Office of Inspector General (IG-1)
               U.S. Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:


                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov


       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
